OFFICE OF THE ATTORNEY GENERAL
Criminal Appeals Division, Tallahassee

 

TRISHA MEGGS PATE
Bureau Chief, Criminal Appeals
ASHLEY MOODY The Capitol
ATTORNEY GENERAL Tallahassee, Florida 32399-1050
STATE OF FLORIDA Telephone (850) 414-3300
Fax (850) 922-6674

 

August 21, 2020

The Honorable Scott S. Harris,
Clerk of Court

United States Suprenie Court
One First Street, N.E.
Washington, D.C. 20543

Re: Jeremiah (“Jenna”) Rodgers v. State of Florida,
Case No. 20-5317

Dear Mr. Harris:

The State of Florida recently received a copy of the petition for writ of certiorari filed
in this non-capital case. Please be advised that the State of Florida will continue to
follow its longstanding policy of declining to respond to petitions filed in non-capital
cases. If the Court specifically requests a brief in opposition in this particular case,
however, the State of Florida will certainly provide one.

For this Court’s information, the same issue being raised in the petition in this non-
capital case is also being raised in the petition in the related capital case of Rodgers
v. Florida, 20-5117.

Respectfully submitted,

Ulu hy

TRISHA MEGGS PATE
Bureau Chief,

Tallahassee Criminal Appeals
Fla. Bar No. 0045489

ec: Linda McDermott, Capital Habeas Unit of the Office of the Federal Public Defender of the Northern
District of Florida, 227 North Bronough Street, Suite 4200, Tallahassee FL, 32301 (850) 942-8818,
linda_mcdermott@fd.org
